               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-04520-201



               Healthcare Inspection 


        Potential Exposure to 

      Creutzfeldt-Jakob Disease 

  VA Connecticut Healthcare System 

      West Haven, Connecticut 





July 1, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
oversight review regarding potential exposure of two patients to Creutzfeldt-Jakob
Disease (CJD) at the VA Connecticut Healthcare System (facility), West Haven, CT.
We reviewed the facility’s procedures for reprocessing of neurosurgical instruments,
handling and tracking of loaner instrument trays, and responding to the potential
exposure and the follow-up actions taken post-exposure. In addition, we reviewed
Veterans Health Administration (VHA) reprocessing requirements for neurosurgical
instruments.

We concluded that the facility took appropriate steps to address potential patient
exposure to CJD. Managers were proactive in seeking counsel from subject matter
experts within the VA and other Government agencies to ensure that proper patient
follow-up and notification occurred in a timely manner. Facility providers notified and
met with the involved patients and/or their family members to discuss the potential
exposure to CJD, the risks of CJD transmission, and answer questions or concerns.
Providers documented clinical disclosures in the patients’ electronic health records.

Although the facility met the recommended manufacturer’s minimum requirement of
4 minutes for sterilization of surgical instruments, the facility amended its process by
increasing sterilization time from 4 to 18 minutes for neurosurgical instruments.
Additionally, managers implemented a process for tracking all loaner instruments from
receipt to return. We concluded that VHA had appropriate policies and procedures for
reprocessing neurosurgical instruments. We made no recommendations.

The Veterans Integrated Service Network and Facility Directors concurred with the
report. (See Appendixes A and B, pages 9 – 1 0 , for the Directors’ comments.) No
further action is required.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                    i
    Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT


                                              Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an evaluation of the VA Connecticut Healthcare System’s (facility) management of two
veteran patients who had been potentially exposed to Creutzfeldt–Jakob disease (CJD).
The specific objectives were to review the facility’s procedures for reprocessing
neurosurgical instruments, handling and tracking loaner instrument trays, and
responding to the potential exposure and the follow-up actions taken post-exposure. In
addition, we reviewed Veterans Health Administration (VHA) reprocessing requirements
for neurosurgical instruments.

                                          Background 

The facility, part of Veterans Integrated Service Network (VISN) 1, comprises two
campuses located in West Haven and Newington, CT. The West Haven campus has
230 beds and provides patient care services that include internal medicine, surgery,
psychiatry, physical medicine and rehabilitation, neurology, oncology, dentistry, and
geriatrics and extended care. Newington is an ambulatory care center that provides
primary and specialty care.

In August 2013, media reports described the potential exposure of patients to CJD. The
source patient, who was located in New Hampshire, had died and during autopsy was
diagnosed with suspected CJD. The instruments used on the source patient were also
used on 15 other patients—8 in a New Hampshire community hospital, 5 in a
Massachusetts community hospital, and 2 at the facility.

CJD Overview

CJD is a rare, degenerative, invariably fatal brain disorder, with about 200 cases per
year in the United States. It usually appears later in life and runs a rapid course, with
symptoms occurring at about age 60. There are three main categories of the disease:

     	 Sporadic: Person has no known risk factors.                      This accounts for at least
        85 percent of cases.

     	 Hereditary: Person has a family history of the disease and/or tests positive for a
        genetic mutation associated with CJD. About 5–10 percent of CJD cases in the
        United States are hereditary.

     	 Iatrogenic: Disease is transmitted by exposure to brain or nervous system tissue,
        usually through certain medical procedures.1




1
 Rutala W, Weber D. SHEA Guideline for Disinfection and Sterilization of Prion-Contaminated Medical
Instruments. Inf Control Hosp Epidemiol 2010;25:107–117.

                                                                                                      1
    Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT

Healthcare-associated2 CJD infections have occurred in less than 1 percent of all
cases. All known cases of healthcare-associated or iatrogenic CJD resulted from
exposure to infectious brain, pituitary, or eye tissue.3,4

CJD Exposure Overview at the Facility

Due to the complexities and costs of the instruments, hospitals often use loaner surgical
instruments from a vendor or another hospital in order to provide necessary instruments
to perform scheduled procedures without the financial burden of purchasing them.5 A
neurosurgical loaner instrument tray was delivered to the facility in early May 2013 and
was used during surgery involving two facility patients. The instruments were
reprocessed following the manufacturer’s recommended decontamination and
sterilization instructions before and after each case.

The first patient (Patient A), an 85-year-old male, had a brain biopsy to determine the
reason for his brain lesions. The second patient (Patient B), a 67-year-old male,
underwent a craniotomy6 for resection of a brain tumor. Table 1 below describes the
dates and types of surgeries.

                                   Table 1. Dates and Types of Surgeries


Patient         Date of Surgery                      Diagnosis                    Surgical Procedure


Patient A       May 30, 2013             Right homonymous                         Left parietooccipital
                                         hemianopsia (absence of vision           stereotactic brain biopsy
                                         toward one side of the visual
                                         world)


Patient B       June 11, 2013            Meningioma (brain tumor that             Craniotomy for
                                         develops from the meninges—              resection meningioma
                                         the membrane that surrounds
                                         the brain and spinal cord)

Source: OIG Review of Electronic Health Records

In late August, the neurosurgical instrument manufacturer (Medtronic, Inc.) notified the
facility that the three instruments included in the loaner tray, a Vertek II Articulating Arm,

2
  Healthcare-associated infections are ones patients acquire while receiving healthcare treatment for other 

conditions. 

3
  Brown P. Environmental causes of human spongiform encephalopathy. In: Baker H, Ridley RM, eds. Methods in

Molecular Medicine: Prion Diseases. Totowa, NJ: Humana Press; 1996:139–154. 

4
  Brown P, Gibbs CJ, Rodgers-Johnson P, et al. Human spongiform encephalopathy: the National Institutes of

Health series of 300 cases of experimentally transmitted disease. Ann Neurol 1994:35:513–529. 

5
  Seavy R. Reducing the Risks Associated with Loaner Instrumentation and Implants. AORN Journal,

2010:92:3:322. 

6
  Surgical removal of part of the skull to expose the brain. It is the most commonly performed surgery for brain 

tumor removal. 


                                                                                                                 2
    Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT

a Passive Planar Probe, and a Small Passive Cranial Reference Frame, had been used
on the source patient in a non-VA facility in May. The source patient had died and was
suspected of having CJD. The diagnosis of CJD was later confirmed by the Centers for
Disease Control and Prevention (CDC). Exhibit 1 shows the instruments in the loaner
tray.
                          Exhibit 1. Instruments Included in the Loaner Tray




       Passive Planar Probe                                Small Passive Cranial Frame




                                                            Vertek II Articulating Arm
Source: Manufacturer’s website

Two of the three loaner instruments had no contact with the facility patients’ brain
tissue. The Passive Planar Probe, used to locate the specific surgical area, was the
only instrument inserted into the facility patients’ brain tissue.

Decontamination and Sterilization Parameters

In 1999, the World Health Organization (WHO) recommended the use of sodium
hypochlorite (chlorine bleach) or sodium hydroxide (NaOH) to disinfect and/or sterilize
instruments if instruments could not be destroyed or quarantined after use on a possible
CJD patient.7 However, FDA investigators found that: (1) autoclaving (sterilizing) in a
1 Normal (N) solution of NaOH causes darkening of some instruments; (2) soaking in
1N NaOH at room temperature damages carbon steel but not stainless steel or titanium;
and (3) soaking in chlorine bleach corrodes gold-plated instruments and will damage



7
 World Health Organization. WHO Infection Control Guidelines for Transmissible Spongiform Encephalopathies,
March 1999.

                                                                                                              3
     Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT

some stainless steel instruments.8 In addition, the CDC indicated that staff should avoid
gaseous exposure to NaOH. Since the release of the WHO guidelines, studies have
demonstrated the efficacy of using enzymatic detergents followed by steam sterilization
in eliminating prions9 from steel surfaces.10,11 Table 2 describes the recommended
procedures for the disinfection and sterilization of surgical instruments potentially
contaminated with CJD from several organizations.

                  Table 2. Recommended Disinfection and Sterilization Procedures for 

                               Potentially Contaminated CJD Instruments



         Source                   Cleaning                    Disinfection                       Sterilization
1. The Society for         Routine cleaning and disinfection: Initial manual             Four options (in order of
Healthcare                 cleaning, soaking in enzymatic solutions, washing             effectiveness):
Epidemiology of            in washer/sterilizer
                                                                                         1. 273°F for 18 minutes
America (SHEA)
                                                                                         (prevacuum sterilizer12);
                                                                                         2. 270°F for 1 hour (gravity
                                                                                         displacement sterilizer13);
                                                                                         3. Immerse in 1N sodium
                                                                                         hydroxide for 1 hour, rinse in
                                                                                         water, transfer to open pan
                                                                                         and sterilize at 250°F
                                                                                         (gravity displacement) or
                                                                                         273°F (prevacuum) for
                                                                                         1 hour; OR
                                                                                         4. Immerse instruments in
                                                                                         1N NaOH for 1 hour and
                                                                                         sterilize (gravity
                                                                                         displacement) at 250°F for
                                                                                         30 minutes.
    2. The American        Routine cleaning:            Alternative:                     Rinse, clean, wrap and
    National Standards                                                                   sterilize using conventional
                           Initial manual               1. Soak instruments in a
    Institute/                                                                           means
                           cleaning, soaking in         solution such as saline or
    Association for the
                           enzymatic solutions,         water to reduce the
    Advancement of
                           washing in                   adherence of tissue or
    Medical
                           washer/sterilizer            blood to the instruments
    Instrumentation


8
  Brown S, Merritt K, Woods T, Busick D. Effects on Instruments of the World Health Organization –

Recommended Protocols for Decontamination after Possible Exposure to Transmissible Spongiform

Encephalopathy-Contaminated Tissue. J Biomed Mater Res Part B Appl Biomater. 2005;72(1):186–90.

9
  An abnormal form of a normal protein (due to the absence of a nucleic acid), which is resistant to heat and

disinfecting agents inactivation and can be transmitted person-to-person. It is thought to be the infectious agent that 

causes CJD and other neurodegenerative diseases.

10
   Lawson V. Enzymatic detergent Treatment Protocol that Reduces Protease-resistant Prion Protein Load and 

Infectivity from Surgical Steel Monofilaments Contaminated with a Human-derived Prion Strain. J Gen Virol Oct.

2007; 88 (10): 2905–2914. 

11
   Rutala W, Weber D. SHEA Guideline for Disinfection and Sterilization of Prion-Contaminated Medical

Instruments. Inf Control Hosp Epidemiol 2010;25:107–117. 

12
   A sterilizer where steam is introduced at the top or the sides; air is removed before the steam is introduced to 

allow for more immediate steam penetration into the items.

13
   A sterilizer where steam is introduced at the top or the sides, and air is forced out of the bottom of the sterilizer. 


                                                                                                                         4
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT


      Source                 Cleaning               Disinfection                    Sterilization
 (ANSI/AAMI)                                   2. Devices can be initially
                                               decontaminated by steam
                                               sterilization at 273°F for
                                               ≥18 minutes in a
                                               prevacuum sterilizer,
                                               250–270°F in a gravity
                                               displacement sterilizer
                                               OR
                                               3. Soak instruments in a
                                               1N solution of NaOH for
                                               1 hour
 3. The International   No specific guidance   No specific guidance          1. 275–278°F for 18 minutes
 Association of                                                              (prevacuum)
 Healthcare Central
                                                                             2. 270°F for 1 hour (gravity
 Service Materiel
                                                                             displacement) or 250°F for
 Management
                                                                             1 ½ hours (gravity
 (IAHCSMM)
                                                                             displacement)
Source: OHI

In this instance, the facility followed the manufacturer’s instructions for the loaner
instruments and its own reprocessing procedures for surgical instruments that were
consistent with industry standards cited in Table 2.

                             Scope and Methodology 

We gathered information from key facility staff members. We interviewed a CJD subject
matter expert from a VA facility and the prion epidemiologist from the CDC. We
discussed the potential exposure in New Hampshire and Massachusetts with the
respective State Health Departments. We also interviewed a VHA reusable medical
equipment reprocessing subject matter expert.

We reviewed the patients’ electronic health records (EHRs), the facility’s reprocessing
procedures, relevant facility policies and procedures, pertinent medical literature, and
the manufacturer’s information on the involved instruments.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




                                                                                                            5
     Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT



                                      Inspection Results 

Issue 1: Reprocessing of Neurosurgery Instruments

We found no evidence that sterilization procedures were compromised. The probe
manufacturer recommended a sterilization time of 4–18 minutes, and the facility used a
4-minute sterilization time. After consultation with CDC, the Connecticut State
Department of Health, and local infectious disease specialists, the facility determined
that its sterilization processes were within established guidelines, including the minimum
recommended sterilization time. Facility managers told us that experts determined that
actual risk of CJD exposure to patients was minimal. We determined that the loaner
neurosurgery instruments were decontaminated and sterilized according to the facility’s
standard operating procedure (SOP) and manufacturer’s instructions.

The facility’s surgical instrument SOP includes pre-soaking the instruments in the
operating room after every surgical procedure with an enzymatic product. Once the
instruments are delivered to the Sterile Processing Service, staff manually clean them
with enzymatic cleaners to flush instruments or equipment with lumens,14 items are
again cleaned in an ultrasonic cleaner, and they are placed in a washer/sterilizer. The
instruments are then dried and packaged for steam sterilization at 275 degrees (°)
Fahrenheit (F) for 4 minutes. After the potential CJD exposure incidents, and to further
minimize the risk of CJD transmission, the facility adopted a longer sterilization time of
18 minutes for neurosurgical instruments by incorporating industry standards15,16 and
recommendations from SHEA.17

Issue 2: Handling and Tracking of Loaner Instruments

The facility utilized a standard process for handling loaner instruments and appropriately
decontaminated and sterilized the loaner instruments upon receipt and after each
patient use according to the manufacturer’s instructions.

However, at the time of the delivery of the loaner tray in May 2013, the facility did not
have a process in place for tracking18 loaner instruments. The facility published a policy
in May 2013, which was later revised in January 2014. The initial tracking tool used for
signing in loaner instruments was initiated in early June 2013; however, the final tool did
not come into use until mid-September. The facility did not have tracking records for the
loaner instruments for the two patients.



14
   An inner open space/cavity or the bore of a tube. 

15
   International Association of Healthcare Central Service Materiel Management Central Service Technical Manual,

7th edition, pp 324–325. 

16
   ANSI/AAMI St 79:2010&A1:2010&A2:2011, p. 163–167. 

17
   Rutala W, Weber D. SHEA Guideline for Disinfection and Sterilization of Prion-Contaminated Medical

Instruments. Inf Control Hosp Epidemiol 2010;25:107–117. 

18
   Process for documenting loaner instrument information from the time of delivery or upon receipt until the final 

disposition when the instrument is returned to the manufacturer. 


                                                                                                                  6
      Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT


Issue 3: Facility Response and Follow-Up Actions

We found that the facility initiated multiple actions in response to the potential exposure.
These included a multidisciplinary review of the internal events; ongoing communication
by the facility’s epidemiologist with key staff at the New Hampshire, Connecticut, and
Massachusetts Departments of Public Health, the prion epidemiologist at the CDC, and
the manufacturer representative; revision of policies; and staff training. Additionally, the
facility Chief Nurse and Epidemiologist provided information to staff and answered
questions.

Facility clinicians notified both patients and/or their family members, and providers
conducted clinical disclosures19 according to VHA policy.20 Once notified by the
manufacturer on August 30 of the possible exposure, facility managers contacted the
VA Central Office (VACO) Office of Public Health and VISN 1 Chief Medical Officer
(CMO). The VISN then referred the issue to the VACO Clinical Event Response Team
(CERT) for review and guidance. On September 5, the facility received approval to
notify the patients. Both patients were notified by phone within 24 hours.

The hematology-oncology physician briefly discussed the potential exposure with
Patient A’s wife by telephone on September 6. The decision was made to have
additional discussions on September 10 during the patient’s clinic visit. During that
clinic visit, the provider decided to admit the patient to the hospital for dehydration and
falls. We did not find documentation of disclosure to the patient during that visit;
however, an addendum progress note was written on October 1, documenting that the
patient and his family were provided with an information sheet regarding his
CJD-exposure during his September 10 clinic visit. Face-to-face clinical disclosure for
Patient B was conducted on September 9. Exhibit 2 below shows the timeline of the
patient notification process.

                                      Exhibit 2. Patient Notification Timeline



                                                                                                        Meeting with
                       Facility contacted
                                                                                                      Patients/Family
     8/30/2013         VISN 1 CMO and               9/5/2013                Patient Phone               Members for
        Facility       VACO Office of             Facility received          Notification            Clinical Disclosures
     notified by the    Public Health.          final approval from
      manufacturer                                VACO CERT to           Patient A – 9/6/2013
                        VISN referred                                                               Patient A – 9/10/2013
      (Medtronic,                                  notify patients.      Patient B – 9/5/2013       Patient B – 9/9/2013
                          case to the
          Inc.).
                        VACO CERT



Source: OHI




19
   A process by which the patient’s clinician informs the patient or the patient’s personal representative, as part of
routine clinical care, that a harmful or potentially harmful adverse event has occurred during the course of care.
20
   VHA Handbook 1004.08, Disclosure of Adverse Events to Patients, October 2, 2012.

                                                                                                                            7
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT


Issue 4: VHA Requirements for Reprocessing of Neurosurgical Instruments

We queried a VHA subject matter expert to determine whether appropriate procedures
are in place for disinfection and sterilization of neurosurgical instruments. We
determined that VHA utilizes appropriate policies and procedures for reprocessing of
neurosurgical instruments that are consistent with acceptable published guidelines from
the following organizations:

   	 International Association of Healthcare Central Service Materiel Management –
      Central Service Technical Manual, 7th edition
   	 ANSI/AAMI St 79:2010&A1:2010&A2:2011
   	 SHEA Guideline for Disinfection and Sterilization of Prion-Contaminated Medical
      Instruments

                                     Conclusions 

We concluded that the facility took appropriate steps to address potential patient
exposure to CJD. Managers were proactive in seeking counsel from subject matter
experts within the VA and other Government agencies to ensure that proper patient
follow-up and notification occurred in a timely manner. Facility providers notified and
met with the involved patients and/or their family members to discuss the potential
exposure to CJD, the risks of CJD transmission, and answer questions or concerns.
Providers documented clinical disclosures in the patients’ EHRs.

Although the facility met the recommended manufacturer’s minimum requirement for
sterilization of surgical instruments, the facility amended its process by increasing
sterilization time from 4 to 18 minutes for neurosurgical instruments. Additionally,
managers implemented a process for tracking all loaner instruments from receipt to
return.     We concluded that VHA had appropriate policies and procedures for
reprocessing neurosurgical instruments. We made no recommendations.




                                                                                                 8
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT
                                                                                       Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                              Memorandum

    Date:      June 11, 2014

    From:      Director, VA New England Healthcare System (10N1)
   Subject: 	Healthcare Inspection—Potential Exposure to Creutzfeldt-Jakob
             Disease, VA Connecticut Healthcare System, West Haven, CT

         To: Director, Region Office of Healthcare Inspections (54LA)
               Director, Management Review Service (VHA 10AR MRS OIG Hotline)


               I have reviewed and concur with the action plans regarding
               Potential Exposure to Creutzfeldt-Jakob Disease at VA
               Connecticut HCS, West Haven, CT.

               Sincerely,




               Michael F. Mayo-Smith, MD, MPH
               Network Director





VA Office of Inspector General                                                                   9
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT
                                                                                       Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                              Memorandum

     Date:     June10, 2014

     From:     VA Connecticut Healthcare System Director (689/00)

 Subject:      Healthcare Inspection—Potential Exposure to Creutzfeldt-Jakob
               Disease, VA Connecticut Healthcare System, West Haven, CT

       To:     Director, VA New England Healthcare System (10N1)

               I have reviewed and concur with the action plans regarding
               Potential Exposure to Creutzfeldt-Jakob Disease at VA
               Connecticut HCS, West Haven, CT.

              Sincerely,




VA Office of Inspector General                                                                  10
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT
                                                                                       Appendix C

               OIG Contact and Staff Acknowledgments
Contact                For more information about this report, please contact the OIG at
                       (202) 461-4720. 

Contributors           Kathleen Shimoda, BSN, Team Leader

                       Julie Kroviak, MD

                       Jovie Yabes, BSN
                       Jackelinne Melendez, MPA




                                                                                                11
  Potential Exposure to Creutzfeldt-Jakob Disease, VA Connecticut Healthcare System, West Haven, CT
                                                                                       Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, VA Connecticut Healthcare System (689/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Blumenthal, Christopher Murphy
U.S. House of Representatives: Joe Courtney, Rosa L. DeLauro, Elizabeth, Esty,
 Jim Hines, John B. Larson

This report is available on our web site at www.va.gov/oig




                                                                                                12
